No. 19A996

IN THE
SUPREME COURT OF THE UNITED STATES

 

EDWARD THOMAS, WARDEN,
CENTRAL PRISON, RALEIGH, NORTH CAROLINA

PETITIONER,
v.
WILLIAM LEROY BARNES,
RESPONDENT.

 

CERTIFICATE OF SERVICE
[CAPITAL CASE]

 

I, Jonathan P. Babb, Special Deputy Attorney General for the State of North
Carolina and a member of the bar of this Court, hereby certify that on the 15th day
of May, 2020, one copy of the State of North Carolina’s PETITION FOR WRIT OF
CERTIORARI was served on counsel for respondent via Federal Express Overnight

mail as follows:

M. Gordon Widenhouse, Jr. George Currin

Rudolf Widenhouse Attorney at Law

1918 Tryon Court 725 Merrimon Ave #8594
Chapel Hill, North Carolina 27517 Asheville, North Carolina 28804
(919) 967-4900 (828) 832-1515

mgwidenhouse@rudolfwidenhouse.com georgecurrin@aol.com
This the 15th day of May, 2020.

 

Jonathan P. Babb
‘Special Deputy Attorney General
*Counsel of Record

 

North Carolina Department of Justice
Post Office Box 629

Raleigh, North Carolina 27602
Telephone: (919) 716-6500
jbabb@ncdoj.gov
